TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Correspondence Audit Selection
                         Process Could Be Strengthened



                                         August 27, 2013

                              Reference Number: 2013-30-077




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE CORRESPONDENCE AUDIT                               avoided additional assessments ranging from
SELECTION PROCESS COULD BE                             $2,343 to $18,874.
STRENGTHENED                                           A factor that contributed to the limited number of
                                                       prior and/or subsequent year tax audits in our
                                                       sample is the emphasis the IRS places on
Highlights                                             keeping its audit inventories free of older tax
                                                       years so there is sufficient time to complete
Final Report issued on August 27, 2013                 audits and assess any resulting taxes within the
                                                       three-year assessment statute of limitations.
Highlights of Reference Number: 2013-30-077            Control issues also exist over how current year
to the Internal Revenue Service Commissioner           audit results are used in deciding whether to
for the Small Business/Self-Employed Division.         audit the prior and/or subsequent year returns.
IMPACT ON TAXPAYERS                                    WHAT TIGTA RECOMMENDED
The IRS relies heavily on the correspondence           TIGTA recommended that the IRS develop and
audit process to address individuals suspected         implement procedures that instruct how current
of underreporting their income tax liabilities.        year correspondence audit results are to be
Correspondence audits result in significant            used in deciding whether the prior and/or
additional tax assessments and are more                subsequent year tax returns warrant an audit.
economical than other types of audits. IRS             To ensure that the instructions are followed, the
statistics show that in Fiscal Year 2012, the IRS      procedures should include instructions for
conducted 1.1 million correspondence audits            monitoring how well current year
and recommended approximately $9.2 billion in          correspondence audit results are used in
additional taxes.                                      deciding to audit prior and/or subsequent year
                                                       returns.
WHY TIGTA DID THE AUDIT
                                                       The IRS agreed with TIGTA’s recommendation
This audit was initiated to determine the              and plans to develop an Internal Revenue
effectiveness of filing checks made during the         Manual section to address the case selection
correspondence audit process in the Small              and delivery process and the duties and roles of
Business/Self-Employed Division.                       analysts and examiners.
Filing checks are used, in part, to determine
whether the same pattern of noncompliance
identified on an audited tax return is present on
the prior and/or subsequent year tax returns,
and if those tax returns warrant an audit. When
properly completed, filing checks leverage IRS
audit resources by increasing the overall
compliance coverage of every audit.
WHAT TIGTA FOUND
TIGTA evaluated a statistical sample of 102 of
7,470 single-year correspondence audits in
which the taxpayers involved agreed that they
understated their tax liabilities by at least
$4,000. Similar tax issues also existed on the
prior and/or subsequent year tax returns for
43 of the 102 taxpayers. TIGTA found that 32 of
the 43 individuals did not have those tax returns
audited and, as a consequence, may have
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Correspondence Audit Selection Process
                             Could Be Strengthened (Audit # 201130046)

 This report presents the results of our review to determine the effectiveness of filing checks
 made during the correspondence audit process in the Small Business/Self-Employed Division.
 The review is part of our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                               The Correspondence Audit Selection
                                                 Process Could Be Strengthened




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Correspondence Audit Process Is a Key
          Enforcement Tool ......................................................................................... Page 3
          Actions Are Needed to Ensure That Prior and/or
          Subsequent Year Tax Returns Are Audited When
          Substantial Taxes May Be Owed .................................................................. Page 6
                    Recommendation 1: .................................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Glossary of Terms ................................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
           The Correspondence Audit Selection
             Process Could Be Strengthened




              Abbreviations

AIMS    Audit Information Management System
GAO     Government Accountability Office
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
TIGTA   Treasury Inspector General for Tax Administration
                                        The Correspondence Audit Selection
                                          Process Could Be Strengthened




                                              Background

The Internal Revenue Service (IRS) has several sources from which to select individual tax
returns for audit. One source is the Discriminant Index Function,1 which is an automated system
for scoring individual tax returns according to their audit potential. In general, the higher the
Discriminant Index Function score, the greater the chance the audit will result in a material tax
change. The IRS’s policy also allows tax returns to be selected through non-Discriminant Index
Function sources. These non-Discriminant sources include compliance studies and research
projects, referrals from other Federal and State Government agencies, and the IRS Revenue
Protection Strategy. Under the Revenue Protection Strategy, many audits are initiated
automatically based on certain computerized business rules at the time the tax return is processed
with little or no examiner involvement and are generally focused on resolving questions about
Earned Income Tax Credits.
Except for audits initiated automatically under the Revenue Protection Strategy, tax returns
identified for audit are typically subjected to a tax return classification process where they are
reviewed by classifiers. These classifiers, who are experienced examiners, play a critical role in
the process because they use their experience and
judgment to apply guidelines for determining which tax
                                                                      Correspondence audits are
returns will be selected for audit consideration and which           generally less intrusive, more
can be accepted as filed. If a tax return is not selected by         automated, and conducted by
the classifier, it is eliminated from the audit stream and           examiners who are trained to
returned to IRS storage files. However, if the tax return is             deal with less complex
selected, the classifier may determine whether the audit                       tax issues.
should be conducted through correspondence or by
face-to-face contact in the field at either the taxpayer’s place of business or an IRS office.
In contrast to the more detailed and lengthy face-to-face audits in the field, the correspondence
audit process is less intrusive, more automated, and conducted by examiners who are trained to
deal with less complex tax issues. Additionally, examiners do not perform required filing checks
during correspondence audits. As reflected in the IRS’s Internal Revenue Manual (IRM),
required filing checks have long been a part of IRS audit policies and procedures that were
implemented, in part, to determine whether the same pattern of noncompliance identified on the
audited tax return is present on the prior and/or subsequent year tax returns and if those tax
returns also warrant auditing. When properly completed, filing checks leverage IRS audit
resources by increasing the overall compliance coverage of every audit.



1
    See Appendix V for a glossary of terms.
                                                                                              Page 1
                                 The Correspondence Audit Selection
                                   Process Could Be Strengthened



Correspondence audits typically begin with the IRS mailing a computer-generated letter to a
taxpayer that outlines the examination process, identifies one or more items on the tax return that
are being questioned, and requests supporting information to resolve the questionable items.
Once returned, examiners review the information to see whether it resolves the questions. If the
questions are sufficiently answered by the information provided, the audit is closed without any
tax changes; if not, the taxpayer is sent a letter requesting more information or indicating a
recommended tax change. The taxpayer at this point can agree with the examiner, provide the
examiner with clarifying information, or appeal the decision to the IRS’s Office of Appeals. In
instances where the taxpayer does not respond to the IRS’s letters, the examiner’s recommended
tax changes are assessed by default and the taxpayer will generally have to petition the court
system to contest the assessment.
This review was performed with information obtained from the Small Business/Self-Employed
(SB/SE) Division Headquarters in Washington, D.C., during the period September 2011 through
May 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 2
                                    The Correspondence Audit Selection
                                      Process Could Be Strengthened




                                   Results of Review

The Correspondence Audit Process Is a Key Enforcement Tool
The IRS relies heavily on the correspondence audit process to address individuals suspected of
underreporting their income tax liabilities. This reliance will likely continue in the coming years
because correspondence audits result in significant additional tax assessments, which helps
decrease the Tax Gap and increase compliance. They also are more economical than other types
of audits.
IRS statistics show that in Fiscal Years 2008 through 2012 the IRS conducted about 5.7 million
correspondence audits and recommended approximately $40.4 billion in additional taxes. As
shown in Figure 1, this represents about 76 percent of all audits the IRS conducted of individual
tax returns and 56 percent of the estimated $72.5 billion in recommended additional taxes from
those audits.
              Figure 1: Selected Audit Results for Individual Tax Returns
                           Fiscal Years 2008 Through 2012

                                                        Fiscal Year
                                  2008         2009        2010            2011    2012    Total
 Total Audits (millions)           1.4           1.4          1.6           1.6     1.5      7.5
 Total Correspondence
                                   1.1           1.1          1.2           1.2     1.1      5.7
 Audits (millions)
 Percentage of
                                   79%          79%          75%            75%     73%     76%
 Correspondence Audits
 Recommended Additional
 Taxes From All Audits            $12.5         $14.9       $15.1          $14.7   $15.3    $72.5
 (billions)
 Recommended Additional
 Taxes From
 Correspondence Audits             $6.5         $7.8         $8.2           $8.7    $9.2    $40.4
 (billions)
 Percentage of
 Recommended Additional
 Taxes From                        52%          52%          54%            59%     60%     56%
 Correspondence Audits
Source: IRS Data Books, Fiscal Years 2008 through 2012, Publication 55B.


                                                                                              Page 3
                                     The Correspondence Audit Selection
                                       Process Could Be Strengthened



The correspondence audit process is also a key tool the IRS uses to help address a portion of the
underreporting noncompliance that contributes to the Tax Gap. The IRS estimated the Tax Gap
for Tax Year 2006 to be $450 billion. The Tax Gap is considered by the National Taxpayer
Advocate,2 Government Accountability Office (GAO),3 Treasury Inspector General for Tax
Administration (TIGTA),4 and the IRS Oversight Board,5 to be one of the most serious problems
facing tax administration. The IRS estimates that $235 billion of the Tax Gap is caused by
individuals underreporting their income tax liabilities.
The correspondence audit process is generally more economical to conduct when compared to
other types of audits, which is very important given the current constrained fiscal environment.
According to a December 2012 GAO report,6 correspondence audits of individual tax returns are
significantly less costly on average than face-to-face audits conducted in the field. The GAO
estimated that the average cost (including overhead) of correspondence audits opened in Fiscal
Years 2007 and 2008 was $274, compared to an average of $2,278 for field audits.

The IRS has taken steps to be more responsive to taxpayers and less susceptible
to missing areas of noncompliance
An IRS survey7 of taxpayers who have had their tax returns audited showed that taxpayers were
dissatisfied with the time it was taking to reach the IRS
on the telephone for help and the overall length of the
audit process. As we reported in August 2012,8 one of      The Intelligent Contact Management
the steps the IRS has taken to help address taxpayers’         System uses a skill-based call
dissatisfaction with IRS customer service was to            routing system that routes calls to
                                                            the next available assistor trained
implement in Fiscal Year 2010 the Intelligent Contact        to handle the question identified,
Management System into the correspondence audit             allowing taxpayers to immediately
process.                                                   speak to an assistor who is familiar
                                                                     with their type of audit and reduce
The Intelligent Contact Management System is a                   the number of repeat contacts.
toll-free telephone system that takes advantage of
modern technologies by using a skill-based call routing
system to link multiple IRS call centers into a single “virtual” call center. Specifically, one

2
  National Taxpayer Advocate, 2009 Annual Report to Congress, Volume One, December 31, 2009.
3
  GAO, GAO-13-151, Tax Gap: IRS Could Significantly Increase Revenues by Better Targeting Enforcement
Resources (Dec. 2012).
4
  TIGTA, Semiannual Report to Congress, October 1, 2011 – March 31, 2012.
5
  IRS Oversight Board, Annual Report to Congress 2011, May 2012.
6
  GAO, GAO-13-151, Tax Gap: IRS Could Significantly Increase Revenues by Better Targeting Enforcement
Resources (Dec. 2012).
7
  IRS, Internal Revenue Service Customer Satisfaction Survey, Correspondence Exam (CCE) SB/SE National
Report, Covering January through March 2011, with Annual Results (Jul. 2011).
8
  TIGTA, Ref. No. 2012-30-093, Improved Toll-Free Telephone Services Should Make It Easier for Taxpayers to
Obtain Assistance During a Correspondence Audit (Aug. 2012).
                                                                                                       Page 4
                                    The Correspondence Audit Selection
                                      Process Could Be Strengthened



toll-free telephone number routes calls to the next available assistor trained to handle the
question identified, regardless of where the assistor and taxpayer are located. The system is
expected to provide taxpayers with the ability to immediately speak to an assistor who is familiar
with their type of issue and reduce the number of repeat contacts. Providing taxpayers with the
ability to speak to an assistor on the first call and reducing call backs has the potential to make
the audit process more responsive and less burdensome for taxpayers. Under its old toll-free
telephone system, the IRS determined that:
       70 percent of calls to examiners were answered by voicemail–39 percent of these calls
        were not returned within 24 hours.
       62 percent of callers were repeat callers. Of the repeat callers, 28 percent wanted to
        know if the information they mailed was received and 26 percent wanted to know what
        information was needed or if the documentation they provided was sufficient.
       13 percent of callers telephoned more than eight times before their tax issues were
        resolved.
In February 20109 we reported that the IRS needed to better identify and pursue unfiled
employment tax and information returns. We determined that approximately $82.6 million in
assessments were at risk because significant tax issues were not addressed during
correspondence audits. Deductions were claimed for payment of wages and/or compensation to
others, but no records existed with the IRS showing employment tax or information returns were
filed.
Unlike procedures for audits conducted in the field, the procedures for correspondence audits do
not require examiners to complete minimum checks to detect unfiled employment tax and
information returns or unreported income. However, correspondence audit procedures do
require the examiners and their managers to consider transferring the audit to the field if there are
deductions that cannot be supported by unfiled returns or substantial amounts of income that may
not have been reported.
We recommended that the IRS expand controls that provide assurance that examiners are
properly performing checks for unfiled employment tax and information returns. Instead, IRS
management agreed to refine inventory selection filters to reduce the number of cases with these
issues from correspondence examination inventory. Additionally, during quality reviews of
correspondence examinations, management will identify inventory where these issues may be
present to ensure that appropriate actions have been taken. Feedback from the case reviews will
be provided to management and the information may be used to refine inventory selection filters.
Our limited testing showed that only about 6,700 (1.4 percent) of approximately 473,800
correspondence audits closed during Fiscal Year 2012 included employee wage and/or contract

9
 TIGTA, Ref. No. 2010-30-024, Significant Tax Issues Are Not Often Addressed During Correspondence Audits of
Sole Proprietors (Feb. 2010).
                                                                                                      Page 5
                                        The Correspondence Audit Selection
                                          Process Could Be Strengthened



labor expenses of $1,000 or more, which may indicate related employment tax or information
return filing requirements.

Actions Are Needed to Ensure That Prior and/or Subsequent Year Tax
Returns Are Audited When Substantial Taxes May Be Owed
We evaluated a statistical sample of 102 of 7,470 single-year correspondence audits of individual
tax returns closed between April 1, 2010, and March 31, 2011, in which each of the taxpayers
involved agreed that they understated their tax liabilities by at least $4,000. Similar tax issues
also existed for the prior and/or subsequent years tax returns filed by 43 of the 102 taxpayers.
Yet, IRS records showed that 32 of the 43 taxpayers’ prior and/or subsequent year tax returns
were not audited.10
        For 16 audits, the taxpayers agreed they owed approximately $4,100 to $7,550 in
         additional taxes after the IRS determined they were not entitled to Earned Income and
         other credits taken on their tax returns. The 16 audits were initiated through the Revenue
         Protection Strategy process.
        For 12 audits, the taxpayers agreed they owed approximately $4,100 to $14,400 in
         additional taxes after the IRS determined they overstated itemized deductions on their tax
         returns. The 12 audits were initiated as a result of the correspondence return
         classification process.
        For four audits, the taxpayers agreed they owed approximately $4,450 to $5,850 in
         additional taxes after the IRS determined they overstated business expenses on their tax
         returns. The four audits were initiated as a result of the correspondence return
         classification process.
Had the prior and/or subsequent tax returns for these 32 taxpayers been audited for similar tax
issues, we estimate the potential additional tax, penalty, and interest assessments would range
from $2,343 to $18,874—totaling $189,422. When the sample results are projected to the
population of 7,470 audits closed between April 1, 2010, and March 31, 2011, we estimate that
2,344 taxpayers may have avoided additional tax, penalty, and interest assessments of
$13.9 million.11




10
   The sampling plan was based on a 95 percent confidence interval, ± 10 percent precision, and 50 percent expected
error rate due to no known rate available. Appendix I contains additional details on the sampling methodology.
11
   The projection is based on a 95 percent confidence level. We expect the number of taxpayers who may have
avoided additional assessments to fall between 1,672 and 3,015 and the total taxes, penalties, and interest avoided to
range from $9.1 million to $18.7 million. Appendix IV contains additional details on the projection.
                                                                                                               Page 6
                                  The Correspondence Audit Selection
                                    Process Could Be Strengthened



Strict adherence to audit cycles limits the number of prior year audits
One factor that contributed to the limited number of prior and/or subsequent year tax audits in
our sample, which we determined the IRS should address, is the emphasis the IRS places on
keeping its audit inventories free of older tax years so there is sufficient time to complete audits
and assess any resulting taxes within the three-year assessment statute of limitations. However,
each year thousands of taxpayers consent to provide the IRS additional time to complete the
audit and assessment processes by consenting to extend the assessment statute of limitations to
either a specific period of time or an unlimited, indefinite period.
For the taxpayer, the additional time can be beneficial in some instances. For example, a
taxpayer might want the IRS to consider other issues during the audit that may offset a proposed
tax assessment or that may allow for a tax refund. Also, if the remaining time before the statute
expires is too short, the IRS might have to prematurely stop the audit process and issue a notice
of deficiency. The notice of deficiency serves to ensure that the taxpayer is formally notified of
the IRS's intention to assess a tax deficiency and to inform the taxpayer of the opportunity and
right to petition the Tax Court to dispute the proposed adjustments.
To minimize the need to request consents to extend the assessment statute of limitations from
taxpayers, the IRS established time periods (audit cycles) to follow when making the decision to
start an audit. In practice, the audit cycles are strictly adhered to and have resulted in a
classification process for correspondence audits that does not consider selecting prior year tax
returns for audit. The IRM states that the audit cycle for an individual tax return spans
26 months and begins on the later of the date when the tax return is due or when it is filed. The
audit cycle for a business tax return (e.g., corporate, partnerships) is 27 months.
Our analysis of 340,000 single-year correspondence audit closures in Fiscal Year 2012 showed
that when about 80,000 (24 percent) of the 340,000 prior year tax returns closed, there were
more than six months remaining in the audit cycle and 18 months remaining on the assessment
statute of limitations. As such, expanding the scopes of some correspondence audits means more
prior year tax returns could be considered, because a single-year correspondence audit averages
fewer than seven months.

Control issues exist in the correspondence audit process for deciding whether
prior and/or subsequent year returns warrant an audit
Unlike examiners who conduct face-to-face audits, correspondence examiners are not required to
consider issues on subsequent year tax returns. Instead, the IRS relies on its audit sources and
tax return classification process for correspondence audits to determine if a prior and/or
subsequent year tax return should be audited. However, procedures do not exist in the IRM that
instruct how current year audit results are to be used in deciding whether a correspondence audit
of the prior and/or subsequent year tax return is warranted. Moreover, procedures have not been
developed and incorporated into the IRM that describe how the audit sources and tax return
classification process are to be monitored through regular management oversight reviews to
                                                                                               Page 7
                                   The Correspondence Audit Selection
                                     Process Could Be Strengthened



ensure that prior and/or subsequent year tax returns are considered in selecting tax returns for
correspondence audit.
Both IRS guidance and the Standards for Internal Control in the Federal Government12 specify
that establishing such control techniques as formal procedures and manager oversight reviews
help enforce adherence to management policies and directives, maintain records showing that
policies and directives are followed, and assure that performance is assessed on an ongoing basis.
Because formalized procedures have not been established for how prior and/or subsequent year
tax returns are to be considered and monitored, there is an increased risk that opportunities could
be missed to address the noncompliance that contributes to the Tax Gap and promote tax system
fairness among taxpayers.

Similar techniques used for face-to-face audits could be considered to help
address the control issues in the correspondence audit process
In contrast to the correspondence audit classification process, SB/SE Division officials have
included procedures in the IRM on the classification process for the office and field audit
programs. Specifically, the IRM recommends that the Territory managers over the Office of
Planning and Special Programs, or their designees, review a representative sample of tax returns
selected for audit and accepted as filed by each classifier.
To supplement the IRM guidance, in Calendar Year 2007, the SB/SE Division developed and
implemented a nationwide Classification Handbook that provides detailed instructions and
explanations of the administrative and business procedures that are required to be followed
during the classification process. The IRM and the Handbook also outline expectations and
responsibilities for both classifiers and managers. Included among managers’ expectations and
responsibilities is a requirement to document the results from reviewing a minimum of
10 percent of the tax returns classified by each classifier. Besides providing assurance that sound
judgment is exercised in deciding which tax returns need to be audited and that performance is
monitored on an ongoing basis, the reviews help ensure that tax returns are selected for audit in
accordance with established procedures and the potential tax change is sufficient to warrant
selection.

Recommendation
Recommendation 1: The Director, Campus Compliance Services, SB/SE Division, should
develop and implement procedures in the IRM that instruct how current year correspondence
audit results are to be used in deciding whether the prior and/or subsequent year tax returns
warrant an audit. To ensure that the instructions are properly followed, the procedures should


12
  GAO (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1, Internal Control: Standards
for Internal Control in the Federal Government (Nov. 1999).
                                                                                                   Page 8
                                 The Correspondence Audit Selection
                                   Process Could Be Strengthened



include instructions for monitoring how well current year correspondence audit results are used
in deciding to audit prior and/or subsequent year tax returns.
       Management’s Response: IRS management agreed with our recommendation and
       plans to take appropriate corrective action by developing an IRM section to address the
       duties and responsibilities of the workload selection analysts; the case selection, delivery,
       and monitoring processes; and the role of correspondence examiners. The IRS did not
       agree with TIGTA’s estimate of $69.4 million in additional revenue as a result of
       increasing the number of prior and/or subsequent year audits. The IRS believes the
       calculation of this outcome measure did not take into account the impact of procedures to
       select the next best case for audit while ensuring there is sufficient time remaining on the
       assessment statute of limitations.
       Office of Audit Comment: TIGTA acknowledged in Appendix IV of the report that
       the value of the outcome measure does not include amounts that would partially offset
       this benefit by directing resources away from other returns to audit prior and/or
       subsequent year returns. In addition, TIGTA added clarifying language in Appendix IV
       of the report to highlight the fact that all tax returns included in the calculation had at
       least 13 months remaining on the assessment statute of limitations. Given that a
       correspondence audit averages fewer than seven months, TIGTA believes there was
       sufficient time to complete all the audits and assess any resulting taxes.




                                                                                              Page 9
                                The Correspondence Audit Selection
                                  Process Could Be Strengthened



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of filing checks made during the
correspondence audit process in the SB/SE Division. To accomplish this objective, we:
I.     Determined the policies, procedures, and techniques (management controls) the
       SB/SE Division has in place to ensure that the correspondence audit process is effectively
       considering and pursuing prior or subsequent year tax returns when warranted.
       A. Researched applicable IRM sections and employee training materials for management
          controls used for the correspondence audit process. In addition, we obtained,
          reviewed, and discussed the desk procedures used to consider the selection of prior
          and subsequent year tax returns.
       B. Interviewed a program manager within the correspondence audit process to obtain
          information about the management controls in place to consider and pursue, when
          appropriate, a review of prior and subsequent year tax returns with similar issues as
          identified in the current year audit.
       C. Reviewed whether the corrective action for TIGTA’s prior recommendations to
          expand correspondence tax examiners’ ability to research subsequent year tax returns
          was implemented.
II.    Analyzed data obtained from the Audit Information Management System (AIMS) and the
       Individual Return Transaction File for 473,809 correspondence audits closed during
       Fiscal Year 2012 to determine the effectiveness of the filters used to remove tax returns
       containing wage expense and/or contract labor expenses on Form 1040, Individual
       Income Tax Return, Schedule C, Profit or Loss From Business, from correspondence
       audit inventory. We validated the audit population by comparing it to correspondence
       audit closures reported on the AIMS Computer Information System and verified the
       accuracy of the resulting downloads by comparing the wage expense and contract labor
       expense data for 15 records to actual tax return data. Based on the data validation, we
       determined the data to be reliable and appropriate for our analysis.
III.   Determined how well correspondence tax examiners were complying with management
       controls related to expanding the audit to include the prior and/or subsequent year tax
       returns.
       A. Obtained a computer data extract from the AIMS for completed correspondence
          audits of individual tax returns that were closed between April 1, 2010, and
          March 31, 2011, and the taxpayer agreed to a tax assessment amount equal to or

                                                                                            Page 10
                         The Correspondence Audit Selection
                           Process Could Be Strengthened



   greater than $4,000. To streamline our testing, we identified single-year
   correspondence audits by eliminating taxpayers who had multiple audit closures
   during our testing period and taxpayers who had an audit closure for a prior or
   subsequent year just before or after our testing period. We also eliminated audits
   selected for training purposes and those selected for the First-Time Homebuyer Credit
   because this credit is allowable only one time. The final review population contained
   7,470 correspondence audits. We validated the review population by comparing
   selected key fields from 15 judgmentally selected records with information on the
   IRS’s Individual Master File and determined the data were reliable and appropriate
   for our analysis.
B. Reviewed a statistical random sample of 102 audits from the 7,470 individual tax
   returns closed as taxpayer agreed correspondence audits between April 1, 2010, and
   March 31, 2011, with a tax assessment amount equal to or greater than $4,000. See
   Step III.A. for identification of the population. Our sampling plan, with concurrence
   from our contract statistician, was based on a 95 percent confidence level,
   ± 10 percent precision, and 50 percent expected error rate because no known rate was
   available. We identified the tax return line items adjusted on the sample cases and
   then analyzed the prior and subsequent year tax returns to determine if the same
   issues were also present.
C. Calculated the potential taxes, penalty, and interest missed because audits were not
   expanded to include prior and/or subsequent year tax returns. We then projected the
   sample review results to the population and discussed them with SB/SE Division
   management.
D. Analyzed data extracted from the AIMS for 340,186 correspondence audits closed
   during Fiscal Year 2012 where there was only one audit for a taxpayer. From this
   data, we determined the average time it takes to complete a single audit and how
   many of the prior year tax returns for these taxpayers had at least six months
   remaining on the audit cycle and at least 18 months remaining on the assessment
   statute of limitations. We validated the initial data extract by comparing it to
   correspondence audit closures reported on the AIMS Computer Information System
   and determined the data were reliable and appropriate for our analysis.




                                                                                 Page 11
                                 The Correspondence Audit Selection
                                   Process Could Be Strengthened



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
determining, during individual tax audits, whether correspondence examiners are examining all
prior and subsequent year tax returns, when warranted. We evaluated these controls by
reviewing source materials and reviewing a sample of 102 examined closed cases.




                                                                                            Page 12
                              The Correspondence Audit Selection
                                Process Could Be Strengthened



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Audit Director
Michelle Philpott, Acting Audit Director
Alan Lund, Audit Manager
David Hartman, Lead Auditor
Aaron Foote, Senior Auditor
Jean Kao, Senior Auditor
Brian Hattery, Information Technology Specialist
Steven Vandigriff, Information Technology Specialist




                                                                                    Page 13
                             The Correspondence Audit Selection
                               Process Could Be Strengthened



                                                                         Appendix III

                        Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                                 The Correspondence Audit Selection
                                   Process Could Be Strengthened



                                                                                  Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $13.9 million in additional taxes, penalties, and interest owed
    by 2,344 taxpayers; approximately $69.4 million over five years (see page 6). Our
    calculation assumes that tax issues present on the prior and/or subsequent year tax return
    would be disallowed at the same rate as the tax issues disallowed on the primary year tax
    return, and that the trend in audit results would remain the same over a five-year period. The
    value of the outcome measure does not include amounts (revenue) that would partially offset
    this benefit as a result of directing examination resources away from other taxpayer returns to
    audit taxpayers’ prior and/or subsequent year tax returns.

Methodology Used to Measure the Reported Benefit:
   We identified a population of 7,470 individual taxpayers with single-year correspondence
    audits closed between April 1, 2010, and March 31, 2011, who had an agreed assessment of
    at least $4,000. See Appendix I for further details.
   We reviewed a statistically valid sample of 102 audits from the population of 7,470 based on
    a 95 percent confidence level, ± 10 percent precision, and 50 percent expected error rate
    because no known rate was available.
   We identified 32 of the 102 taxpayers audited who had prior or subsequent year tax returns
    with similar tax issues as the original audit that may have warranted expanding the audit to
    those tax returns. Each of the 32 taxpayers’ prior and subsequent year returns had at least
    13 months remaining on the assessment statute of limitations when the original audit was
    completed.
   Based on our sample error rate of 31 percent (32/102), a confidence level of 95 percent, and a
    ± 8.99 percent precision, we calculated the number of taxpayers in the population who may
    have avoided additional taxes, penalties, and interest to be 2,344 taxpayers [7,470 x 31
    percent], with a range of 1,672 to 3,015.
   To estimate the potential amount of additional tax, penalty, and interest that may have been
    assessed for these 32 taxpayers, we computed the additional tax, penalty, and interest

                                                                                           Page 15
                                   The Correspondence Audit Selection
                                     Process Could Be Strengthened



    liabilities for the prior and/or subsequent year if the tax issues similar to those that resulted in
    adjustments to the primary year tax return were present. Based on this analysis, we estimated
    that had the IRS audited the prior and/or subsequent year tax returns for these 32 taxpayers in
    our sample, an additional $154,604 in taxes, $18,632 in penalties, and $16,186 in interest
    could have been assessed.
   We calculated the average additional taxes, penalty, and interest for all 102 taxpayers in our
    sample [$189,422/102 = $1,857].
   We then multiplied the number of audits in the total population by the average additional
    taxes, penalty, and interest amounts due from our sample audits to determine the total amount
    of additional taxes, penalty, and interest the taxpayers in the population of 7,470 may have
    avoided [7,470 x $1,857 = $13,871,790]. Using the computed standard deviation of $3,346
    to compute the ± $645 precision for our sample, we are 95 percent confident that the total
    amount of taxes, penalties, and interest avoided by the taxpayers in our population will be
    between $9,054,390 and $18,690,382.
   To estimate the amount of additional taxes, penalties, and interest owed that could be
    assessed over five years if the IRS expanded audits to the prior and/or subsequent year tax
    returns when similar tax issues are present, we multiplied the total amount of additional
    taxes, penalties, and interest we estimated is owed for the population of 7,470 examination
    cases closed between April 1, 2010, and March 31, 2011, by five to obtain the amount of
    taxes, penalties, and interest that would be owed over five years [$13,871,790 x 5 =
    $69,358,950]. Our calculation assumes that all estimated taxes, penalties, and interest would
    be owed based upon audits of the taxpayers’ books and records and that conditions such as
    economic factors, tax law, compliance rates, and IRS audit coverage remain the same.




                                                                                                Page 16
                                The Correspondence Audit Selection
                                  Process Could Be Strengthened



                                                                                 Appendix V

                               Glossary of Terms

AIMS Computer Information System – A monitoring and reporting tool that allows its users to
generate reports about audit information on the AIMS and related computer systems.
Assessment Statute of Limitations – When the IRS audits a tax return and determines that there
is an additional tax liability, the additional tax assessment must generally be processed within
three years from the date the tax return was due or from the date on which the tax return was
actually filed, whichever is later.
Audit Information Management System – A computer system used to control tax returns,
input assessments/adjustments to the Master File, and provide management reports.
Classification – The process used by IRS Examination functions to determine which tax returns
should be selected for audit.
Discriminant Index Function – An IRS computer-generated score that identifies tax returns
with tax change potential.
Earned Income Tax Credit – A refundable Federal tax credit for low-income working
individuals and families.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
Individual Master File – An IRS database that maintains transactions and records of individual
tax accounts.
Individual Return Transaction File – An IRS database that maintains data transcribed from
initial input of the original individual tax returns during return processing.
Internal Revenue Manual – The primary, official source of instructions to staff relating to the
organization, administration, and operation of the IRS.
Master File – A group of IRS databases that maintain transactions and records of tax accounts.
These databases contain data for individuals, businesses, and employee plans and exempt
organizations.
Required Filing Checks – An analysis of the tax return information and, when warranted,
expansion of the examination to include additional tax returns.
Revenue Protection Strategy – A set of IRS programs aimed at identifying and resolving tax
issues prior to issuing a taxpayer’s refund.

                                                                                         Page 17
                                The Correspondence Audit Selection
                                  Process Could Be Strengthened



Tax Gap – The difference between taxes that are legally owed and taxes that are paid on time.
Tax Year – The 12-month period for which tax is calculated. For most individual taxpayers, the
tax year is synonymous with the calendar year.
 




                                                                                        Page 18
            The Correspondence Audit Selection
              Process Could Be Strengthened



                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 19
The Correspondence Audit Selection
  Process Could Be Strengthened




                                     Page 20
The Correspondence Audit Selection
  Process Could Be Strengthened




                                     Page 21
